February 11, 2013

MEMORANDUM FOR:                Ellen Herbst
                               Senior Advisor to the Deputy Secretary


FROM:                          Andrew Katsaros
                               Assistant Inspector General for Audit

SUBJECT:                       Nonfederal Audit Results for the 6-Month Period Ending
                               December 31, 2012

This memorandum provides an analysis of nonfederal audit reports, including a summary of
findings, that OIG reviewed during the 6-month period ending December 31, 2012, for entities
receiving federal awards that are subject to audit requirements. Section 1 discusses audit
reports submitted for states, local governments, tribes, colleges and universities, and nonprofit
organizations. Section 2 discusses reports submitted for commercial organizations.

Section 1: Analysis of Audits Submitted for States, Local Governments, Tribes,
Colleges and Universities, and Nonprofit Organizations

Nonfederal entities (i.e., states, local governments, tribes, colleges and universities, and
nonprofit organizations) that expend $500,000 or more in federal awards in a year are required
by the Single Audit Act of 1984, and Amendments of 1996, to have an annual audit of their
federal awards in accordance with OMB Circular A-133, “Audits of States, Local Governments,
and Non-Profit Organizations.” The purpose of the Single Audit Act is to set forth standards
for obtaining consistency and uniformity among federal agencies with the audit of nonfederal
entities expending federal awards. The single audit includes a review of the entities’ financial
statements and Schedule of Expenditures of Federal Awards. The auditor determines whether
the statements are presented fairly; tests internal controls; and determines compliance with
laws, regulations, and the provisions of the contracts or grant agreements that may have a
direct and material effect on each major program.

All auditees electronically submit to the Federal Audit Clearinghouse a data collection form (a
summary of audit results), as well as a copy of the reporting package consisting of
   •   financial statements,
   •   a schedule of expenditures of federal awards,
   •   a summary schedule of prior audit findings,
   •   auditor’s reports of compliance and opinion on the financial statements, and
   •   a corrective action plan.
Federal awarding bureau responsibilities in connection with the Single Audit Act include
      •    identifying federal awards,
      •    advising recipients of requirements imposed on them by federal laws, regulations, and
           the provisions of contracts or grant agreements,
      •    ensuring audit completion and report receipt,
      •    providing technical advice to auditees and auditors, and
      •    issuing a management decision on audit findings within 6 months after receipt of the
           audit report—and ensuring that the recipient takes appropriate and timely corrective
           action. 1

OIG is responsible for reviewing the submitted audit report and auditee responses and
determining whether the recommendations can be implemented. In instances with
nonresolution findings, we notify the responsible bureau of the finding(s) and emphasize the
importance of resolution of the finding(s) before the next audit; however, a formal response in
accordance with Department Administrative Order (DAO) 213-5, “Audit Resolutions and
Follow-Up,” is not required. In instances with material findings, DAO 213-5 requires a formal
response. OIG notifies the auditee and the responsible bureau of the finding(s). We work with
the bureaus to ensure they prepare written determinations, specifying concurrence or
nonconcurrence with each recommendation. The written determination presents a specific plan
of corrective action, with appropriate target dates for implementing all accepted
recommendations. We conduct this review on an ongoing basis and intend to present summary
analyses semiannually.

We reviewed each report for compliance with the reporting requirements of OMB Circular A-
133 (but not the quality of the underlying audits) and analyzed the results. Table 1 (below)
summarizes our observations:




1
    See Office of Management and Budget (OMB) Circular A-133, subpart D, section 400 (c).




                                                         2
                                                       Table 1.
  Analysis by Bureau for OIG-Reviewed Single Audit Reports, July–December 2012

                          Reports       Percentage
             Reports                                      Material     Nonresolution         Total       Questioned
Bureau                      with        of Reports
            Reviewed                                      Findingsa      Findingsb          Findings        Costsc
                          Findings     with Findings

EDA             41            27               66               7             61               68          $856,015
NOAA            24            11               46               2             19               21             31,685
NTIA            15            13               87              14             24               38          1,467,451
NIST             5             2               40               0              9                9                  0
MBDA             1             1              100               0              2                2                  0
Multiple        29             6               21               0              0                0                  0
TOTAL          115            60               52              23            115              138        $2,355,151
 Source: OIG
 a
   Material findings are those with questioned costs greater than or equal to $10,000 and/or significant nonfinancial
 findings; b nonresolution findings are those with questioned costs less than $10,000 or administrative findings;
 c
   questioned costs are subject to change through the audit resolution/appeal process.
 As shown in table 1, there were
     •     52 percent of all reports reviewed that contained at least one finding,
     •     14, 7, and 2 material findings for NTIA, EDA, and NOAA, respectively,
     •     between 2 and 61 nonresolution findings (less significant or procedural findings whose
           resolution OIG does not monitor), at each of five Department bureaus; and
     •     approximately $2.4 million of questioned costs identified for all Commerce programs.

 Table 2 (below) provides a summary analysis of reports reviewed, including the number of
 reports with findings (both material and nonresolution), with emphasis on the number of
 material findings by Departmental program.




                                                           3
                                       Table 2.
         Findings in OIG-Reviewed Single Audit Reports, July–December 2012,
         by Departmental Program, Identified by Catalog of Federal Domestic
                             Assistance (CFDA) Number
                                                  Number of            Number of      Percentage
                                                Awards Included          Awards       of Awards       Material
Bureau           Program            CFDA
                                                  on Reports              with           with         Findings
                                                  Revieweda             Findingsa      Findingsa
            Investments for
            Public Works and
EDA         Economic                 11.300                18               10              56            5
            Development
            Facilities
            Economic
            Adjustment
EDA         Assistance—              11.307                39               23              59            2
            Revolving Loan Fund
            (RLF) Program
NOAA        Sea Grant Support        11.417                13                1               8            2
            Broadband
            Technology
NTIA                                 11.557                18               11              61            8
            Opportunities
            Program (BTOP)
            State Broadband
            Data and
NTIA                                 11.558                 7               2               29            6
            Development Grant
            Program
Source: OIG
a
  An entity report may have more than one award per CFDA program listed on the SEFA. Table 2 counts each
CFDA award line on the report SEFA. Table 2 counts may be larger than table 1 as a report may have multiple
awards for the same CFDA number.

As shown in table 2, the bureau programs with the most material findings were NTIA BTOP,
with 8, and NTIA State Broadband Data and Development Grant Program, with 6. The
program with the highest percentage of reports with material and/or nonresolution findings was
BTOP, with 61 percent.

The most common finding types across all Departmental programs included noncompliance
with
    •   reporting requirements (either deficient or late reports),
    •   CPA firm played a large role in preparing the financial statements,
    •   internal control policies concerning segregation of duties,
    •   cost principles pertaining to allowable costs, and
    •   “Special Tests and Provisions” requirements.




                                                       4
Regarding the latter finding type: there were 9 findings related to “Special Tests and Provisions”
associated with the EDA RLF Program’s 23 awards with findings, including
       •   noncompliance with RLF capital utilization rates, 2
       •   bank turndown letters, demonstrating that credit is not otherwise available, that could
           not be located, and
       •   incorrect calculation of RLF expenditures on the Schedule of Expenditures of Federal
           Awards.

Section 2: Analysis of Audits Submitted for Commercial Organizations

Commercial organizations that receive federal funds from the Department are not subject to
Single Audit Act requirements. However, they are subject to audit requirements as stipulated in
the award document. 3 The Department of Commerce Financial Assistance Standard Terms and
Conditions (March 2008) provides guidance that, unless otherwise specified in the terms and
conditions of the award, an audit shall be performed when the federal share amount awarded is
$500,000 or more over the duration of the project period. Additionally, it provides that an
audit is required at least once every 2 years depending on the length of the award and the
terms and conditions of the award. Some Departmental programs have specific audit guidelines
that are incorporated into the award. When the Department does not have a program-specific
audit guide available for the program, the auditor will follow the requirements for a program-
specific audit as described in OMB Circular A-133, section 235.

Federal awarding bureau responsibilities in connection with for-profit audits, per the
Department of Commerce Grants Manual, include
       •   providing grants administration and programmatic guidance and support to recipients
           and
       •   reviewing the audit report and the recipient’s response and preparing the audit
           resolution proposal in accordance with DAO 213-5.

OIG responsibility for the review of for-profit audits is the same as for single audits (see section
1). During the current review period, our analysis of audits submitted for commercial and other
organizations included the NIST Advanced Technology Program (ATP) awards and the NIST
Technology Innovation Program (TIP) awards. While our responsibility included the NTIA
BTOP awards, none were submitted.

ATP and TIP awards range from 1 to 5 years, with audits due after the first, third, and fifth
years. ATP—which awarded funds from 1990 through 2004 and then in 2007—was replaced by
TIP, which awarded funds from 2009 through 2011. The last group of audit report submissions
is due in 2013 for ATP and in 2015 for TIP.


2
 EDA generally requires recipients to have at least 75 percent of the RLF’s capital base loaned or committed at
any given time.
3
    15 C.F.R. §§ 14.26(c)–(d).




                                                        5
BTOP awards span 3 years, with audits due after the first and third years. NTIA awarded BTOP
grants in 2010, and all first-year audits submitted have been reviewed. There were no BTOP
audits processed for this period because the first-year audits were processed in prior periods
and the third-year audits have not been submitted. Third-year audits are due starting in 2013.

For commercial audits, both the grants officer and OIG receive a copy of the program-specific
audit reporting package, prepared in accordance with program guidelines (see table 3, below).




                                              6
                                     Table 3.
        Audit Guidance, Threshold, and Requirements for Reporting Packages
                   for Commercial Audit Submissions Reviewed

Bureau and program                                     NTIA BTOP              NIST ATP              NIST TIP


CFDA number                                                 11.557               11.612               11.616

                                                                                                Government Auditing
                                                                            Program-specific       Standards and
                                                      Program-specific       audit guidelines    program-specific
Audit guidance                                         audit guidelines          for ATP          audit guidelines
                                                         for BTOP              cooperative      described in OMB
                                                                               agreements         Circular A-133
                                                                                                    Section 235

Audit threshold                                          >$100,000             All awards           All awards

Required components of audit reporting package

 Schedule of funds’ sources and project costs (by                                                     
 budget category)
                                                                                                      
 Independent auditor’s reporta
 Report on the auditee’s internal control over
 compliance and an opinion on compliance with                                                         
 direct and material requirements applicable to the
 program
                                                                                                      
 Schedule of findings and questioned costs
                                                                                                      
 Schedule of prior audit findings
                                                                                                      
 Corrective action plan
                                                            N/Ab                                      N/Ab
 Management assertions
                                                      If available (audit
 Audited financial statements                                                    N/Ab                  N/Ab
                                                        not required)

Source: OIG, from program-specific audit guidelines for BTOP and ATP cooperative agreements, as well as
Government Auditing Standards and program-specific audit guidelines described in OMB Circular A-133 Section 235
a
 The independent auditor’s report is the opinion (or disclaimer) as to whether the Schedule of Funds Sources and
Project Costs award is presented fairly in all material respects in conformity with general accepted accounting
principles or another comprehensive basis of accounting; bnot applicable.




                                                        7
         We reviewed each report for compliance with the applicable reporting requirements (but not
         the quality of the underlying audits) and analyzed the results. Table 4 summarizes our
         observations:

                                                 Table 4.
                     Analysis by Bureau for OIG-Reviewed Commercial Audit Reports,
                                           July–December 2012a
                                                 Reports      Percentage of                    Non-
                                   Reports                                       Material                    Total        Questioned
Bureau      Program      CFDA                    with         Reports with                     resolution
                                   Reviewed                                      Findingsb                   Findings     Costsd
                                                 Findings     Findings                         Findingsc

NIST           ATP        11.612        18           10                56            27             4            31       $1,609,040

NIST           TIP        11.616        9             4                44             3             4             7           46,633


         Source: OIG
         a
           Each of these programs has recipients that could be subject to audit in accordance with OMB Circular A-133, If
         significant, results for those reviews appear in section 1;b material findings are those with questioned costs greater
         than or equal to $10,000 and/or significant nonfinancial findings; c Nonresolution findings are those with questioned
         costs less than $10,000 or administrative findings; d Questioned costs amounts are for federal share and are subject
         to change through the audit resolution/appeal process.

         The most frequent finding types across the ATP program included noncompliance with award
         requirements for allowable costs and cost principles, matching, level of effort, and reporting.
         The most common finding types across the TIP program included noncompliance with award
         requirements for allowable costs/cost principles and activities allowed or unallowed.

         Our nonfederal audit team, which will provide the bureaus a detailed summary of the findings, is
         ready to discuss these results in more detail as the Department proceeds with the resolution of
         findings. If you have any questions, please contact me at (202) 482-7859 or Mark Zabarsky at
         (202) 482-3884.




                                                                   8
